No.

IN THE
SUPREME COURT OF THE UNITED STATES
ERNEST.FRANCIS PETITIONER

STATE OF CONNECTICUT
PROOF OF SERVICE
I Ernest Francis, do swear or declare that on May 14th, 2021 )
as required by Supreme court Rule 29 i Have served the enclosed
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION FOR A
WRIT OF CERTIORARI on each party to the above proceeding or that
partty's counsel, and on every other person required to be served,
by depositing an envelope containing the above documents in the
United States mail properly addressed to each of them and with 1
first-class postage pre-paid, or by delivery to a third party
commercial carrier for delivery within 3 calender days.
The Names and address of those
Mathew Weiner Assistant States
Hill Connecticut 06067.
The Honorable Justice Robinson
Kahn and Ecker at The Supreme
Connecticut 06106.

served are as follows:
Attorney 300 Corporate Place Rocky
C.J 5 McDonald, D'Auria, Mullins,
Court .231 Capitol Avenue Hartford > .

I declare under penalty of perjury that the foregoing is true
and correct.
Executed on May 14th 2021

Signature

